No. 19-123
IN THE

Supreme Court of the United States
_____________________________

SHARONELL FULTON, ET AL.,
Petitioners,
vs.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
_____________________________
On Writ of Certiorari to the United States Court
of Appeals for the Third Circuit

_____________________________

BRIEF OF AMICUS CURIAE KIDSVOICE IN
SUPPORT OF RESPONDENTS
_____________________________
SCOTT HOLLANDER
THOMAS WELSHONCE
JONATHAN BUDD
JENNIFER MCGARRITY
KIDSVOICE
437 Grant Street
Suite 700
Pittsburgh, PA 15203

DAVID R. FINE
(Counsel of Record)
K&L GATES LLP
17 North Second St.
18th Fl.
Harrisburg, PA 17101
(717) 231-4500
david.fine@klgates.com

Counsel for Amicus Curiae

i
TABLE OF CONTENTS
Page
IDENTITY AND INTEREST OF AMICUS
CURIAE ....................................................................... 1
SUMMARY OF ARGUMENT ..................................... 2
ARGUMENT ............................................................... 3
I.

The requested relief threatens the
ability of Pennsylvania county
governments to maintain networks
of private providers contracted to
meet each county’s overall human
service needs. ....................................................... 3

A. Allegheny County as a case study
in microcosm ........................................................ 4
B. Specific examples of harm and of
extraordinary practical and publicpolicy disruptions that would arise
were CSS’s position to prevail. ........................... 7
C. Extrapolating Allegheny County
analysis to the nation as a whole. .................... 11
II.

CSS’s suggested workaround is
untenable and unduly burdensome. ................. 12

ii
III. Allowing contractors rather than
the government to dictate the
terms of government contracts or
requests for proposals would
undermine government contracting
principles and would risk
inequitably increasing the costs to
taxpayers ........................................................... 13
CONCLUSION ......................................................... 16

iii
TABLE OF AUTHORITIES
Page
State Cases
In Re: J.A.,
107 A.3d 799 (Pa. Super. 2015) ............................. 9
State Statutes
62 P.S. §§ 901-922 ....................................................... 3
Regulations
55 Pa. Code § 3700.61 ................................................. 4
Other Authorities
Allegheny County Department of
Human Services Area Agency on Aging
Office Profile,
https://www.alleghenycountyanalytics.u
s/wp-content/uploads/2020/08/OfficeProfiles-AAA-2020.pdf................................................. 5

iv
Allegheny County Department of
Human Services, Office of Behavioral
Health, Office Profile,
https://www.alleghenycountyanalytics.u
s/wpcontent/uploads/2020/08/OfficeProfiles-OBH-2020.pdf ................................................ 6
Allegheny County Department of
Human Services, Office of Children,
Youth and Families, Office Profile,
https://www.alleghenycountyanalytics.u
s/wpcontent/uploads/2020/08/OfficeProfiles-CYF-2020.pdf ............................................. 4, 5
Allegheny County Department of
Human Services, Office of Community
Services, Office Profile,
https://www.alleghenycountyanalytics.u
s/wpcontent/uploads/2020/08/OfficeProfiles-OCS-2020.pdf ................................................. 6
Allegheny County Department of
Human Services, Office of Intellectual
Disability, Office Profile,
https://www.alleghenycountyanalytics.u
s/wp-content/uploads/2020/08/OfficeProfiles-OID-2020.pdf ................................................. 6

v
Allegheny County Department of
Human Services, Office Profile,
https://www.alleghenycountyanalytics.u
s/wp-content/uploads/2020/08/OfficeProfiles-DHS.pdf ......................................... 5, 6, 12, 14
CHILD INFORMATION GATEWAY,
FACTSHEET: STATE V. COUNTY
ADMINISTRATION OF CHILD
WELFARE SERVICES, CHILDREN’S
BUREAU/ACYF/ACF/HHS (2018),
https://www.childwelfare.gov/pubPDFs/
services.pdf ................................................................ 12
https://www.alleghenycounty.us/WorkA
rea/linkit ...................................................................... 8
Xavier University, Multi Faith
Calendar of Religious Holy Days,
https://www.xavier.edu/jesuitresource/o
nline-resources/calendar-religiousholidays-andobservances/index.php#WorkRestrict ........................ 8

IDENTITY AND INTEREST OF
AMICUS CURIAE
KidsVoice (www.kidsvoice.org) is a non-profit
organization founded in 1908 as the Legal Aid Society
of Pittsburgh. 1 KidsVoice represents more than 3,000
children each year in juvenile court dependency cases
in Allegheny County, Pennsylvania. KidsVoice continues to represent clients through age 24 after they
leave the child-welfare and foster systems and require
help with housing, credit, social security disability,
health care access, mental health, intellectual disability and expungement of juvenile court records. These
services remove barriers to housing, health care, and
employment. Many KidsVoice clients are LGBTQ
youth and young adults who require specialized advocacy due to the discrimination and significant challenges they face at home, school, in foster care and
with employment.
KidsVoice worked with the states of Connecticut, Louisiana, Wyoming and Colorado, and with
Travis County, Texas, to develop child-advocacy offices using the KidsVoice practices and multidisciplinary approach to protect child victims of physical abuse, sexual abuse or neglect. KidsVoice was
one of five lead partners—and the only direct service
child advocacy organization—on a five-year, $6 million federal Quality Improvement Center Project for
legal representation of abused and neglected children
Amicus curiae certifies that no counsel for any party authored this brief in whole or in part, no party or its counsel made
any monetary contribution intended to fund the preparation or
submission of this brief and that no person or entity other than
the amicus or its counsel made such a contribution.
1

Amicus curiae certifies that counsel for the parties have
consented to the filing of this brief.

2
funded by the Children’s Bureau of the United States
Department of Health and Human Services.
SUMMARY OF ARGUMENT
The briefs of the parties and other amici thoroughly analyze the constitutional issues and effects
on LGBTQ youth and foster parents. KidsVoice will
not address those issues here. KidsVoice will instead
analyze the practical implications of a holding in favor of the petitioners (collectively, “CSS”) on the government’s ability to deliver child-welfare and other
social services. While KidsVoice will focus on the effects in Allegheny County, Pennsylvania, those teachings can be extrapolated to the rest of the nation.
Accepting CSS’s invitation to establish a constitutional right of government services contractors to
opt out of contract requirements that conflict with
their faith would have extraordinary consequences.
These consequences go well beyond providers refusing
to work with LGBTQ families or others. They would
affect government-contracted social services whenever
a contracted provider enters a contract then later objects on religious grounds to a contract term. Government contracting agencies and vulnerable children, families and individuals in need of help would
face uncertainty and confusion because they would
not know what providers would be willing to serve
them, provide particular services, or provide services
when needed if providers could discriminate, decline
to provide specific contracted-for services or decline to
provide those services on particular days for religious
reasons.
The Allegheny County data and analyses offer
specific examples of the disruptions and consequences
that would ensue if those who choose to enter into
government contracts would be deemed to have the

3
constitutional right to demand that basic terms of
those contracts be changed to reflect the contracting
parties’ beliefs. But government contracting cannot
work that way. If government entities establish neutral contract terms that bear a reasonable relationship to legitimate government purposes, those who
would seek to do business with the government entities may choose to enter into those contracts—or not
to do so if the terms offend their beliefs. But they
cannot disrupt those programs by demanding that
they be tailored to their own beliefs.
ARGUMENT
I.

The requested relief threatens the ability
of Pennsylvania county governments to
maintain networks of private providers
contracted to meet each county’s overall
human service needs.

Government social-service systems across the
United States contract with private service providers
to deliver an array of specialized services to vulnerable children and families. Those contracted providers
fulfill the government’s duty to provide these necessary services to the public that would otherwise be
provided by government employees. 2 Children, parents and families rely upon these providers to follow
the government agreements as contracted to deliver
critical services to support and protect needy children,
families and individuals.
For example, the delegation of government authority involved in this case is the Pennsylvania regulation indicating
that: “The Department delegates its authority under Article IX
of the Public Welfare Code (62 P.S. §§ 901-922 to inspect and
approve foster families to an approved FFCA.” 55 Pa. Code §
3700.61.
2

4
Amicus curiae KidsVoice represents more than
3,000 abused and neglected children in Allegheny
County Juvenile Court dependency cases each year.
This includes advocating for the Allegheny County
Office of Children, Youth and Families (“CYF”), the
county child-welfare agency, to provide appropriate
services to KidsVoice clients and their families. For
many individual clients, this involves asking that the
Allegheny County Juvenile Court order CYF to provide specific court-ordered services.
A.

Allegheny County as a case study in
microcosm

The great majority of Allegheny County social
services come from contracted providers. In fact, during the fiscal year ending June 30, 2020, CYF contracted with 200 providers to deliver $244.38 million
in contracted child welfare services. 3 This means that
79.5 per cent of the total CYF budget of $307.4 million
was paid to contracted providers to deliver government required and paid child welfare services to
18,759 individuals or 95 per cent of the 21,264 overall
individuals, 8,478 children and 12,786 adults, receiving CYF services that year. 4
The $244.38 million Allegheny County CYF
spends is just one piece of the total Allegheny County
Department of Human Services (“DHS”) spending on
government-contracted social services. In fiscal year
2020, DHS spent $943.7 million or 89.8 per cent of an
overall $1.051 billion budget on 414 contracts with
Allegheny County Department of Human Services, Office
of Children, Youth and Families, Office Profile, https://
www.alleghenycountyanalytics.us/wpcontent/uploads/2020/08/Of
fice-Profiles-CYF-2020.pdf.

3

4

Id.

5
private providers to deliver social services to 200,000
Allegheny County residents. 5
Including CYF contract providers, the $943.7
million DHS spent overall on 414 contracts provided
services to 125,527 individuals. 6
Those services for children, adults and families
include services for seniors 7, behavioral health 8,
homeless prevention and homelessness, 9 substanceAllegheny County Department of Human Services, Office
Profile, https://www.alleghenycountyanalytics.us/wp content/uploads/2020/08/Office-Profiles-DHS.pdf.
5

That 125,527 number totals the individuals reported as
receiving contracted services on the DHS Office Profiles for CYF
(18,759), the Office of Behavioral Health (67,698), the Office of
Intellectual Disability (6,450), the Office of Community Services
(9,379) and the Area Agency on Aging (23,241) available at
https://www.alleghenycountyanalytics.us/index.php/dhs-officeprofiles/.

6

$32.77 million or 67.3 per cent of the Area Agency on
Aging’s $48.7 million budget was spent on 82 contracted providers to deliver contracted services for seniors to 23,241 individuals or 57 per cent of the overall 40,544 individuals receiving senior services that year. See Allegheny County Department of Human Services Area Agency on Aging Office Profile,
https://www.alleghenycountyanalytics.us/wpcontent/uploads/2020/08/Office-Profiles-AAA-2020.pdf.
7

$132.58 million or 91 per cent of the Office of Behavioral
Health’s $145.7 million budget was spent on 92 contracted providers to deliver services to all 100 per cent of the 67,698 individuals receiving the contracted mental health, substance abuse
and early intervention services provided by that office See Allegheny County Department of Human Services, Office of Behavioral
Health,
Office
Profile,
https://www.alleghenycountyanalytics.us/wpcontent/uploads/2020/08/Office-Profiles-OBH-2020.pdf.

8

$98.64 million or 91 per cent of the Office of Community
Services$108.4 million budget was spent on 77 contracted pro-

9

6
abuse treatment, and services for early intervention,
developmental delays, autism and other intellectual
disabilities. 10
Faith-based organizations are among the contracted service providers in every part of Allegheny
County’s DHS system. 11 The services provided by
these organizations are vital, and these organizations
are an important part of the network of providers.
Some of the government-delegated contracted
services require the following:
▪
weekend and evening transportation of children to medical, mental health, tutoring, family visits
or other appointments;
▪
crisis therapeutic teams available 24 hours a
day, seven days a week to be dispatched immediately
to biological or foster homes to address severe and
disruptive emotional situations and to de-escalate crises;
viders to all 100 per cent of the 9,379 individuals receiving services for homelessness, homeless prevention and housing. See
Allegheny County Department of Human Services, Office of
Community
Services,
Office
Profile,
https://www.alleghenycountyanalytics.us/wpcontent/uploads/202
0/08/Office-Profiles-OCS-2020.pdf.
10
$10.06 million or 87.7 per cent of the Office of Intellectual Disability $11.5 million budget was spent on 50 contracted
providers to deliver contracted services to all 100% of the 6,450
individuals receiving services for developmental delays, autism
and other intellectual disabilities. See Allegheny County Department of Human Services, Office of Intellectual Disability,
Office
Profile,
https://www.alleghenycountyanalytics.us/wpcontent/uploads/2020/08/Office-Profiles-OID-2020.pdf.

Allegheny County Department of Human Services, Office
Profile,
https://www.alleghenycountyanalytics.us/wpcontent/uploads/2020/08/Office-Profiles-DHS.pdf.
11

7
▪
weekend respite foster care one weekend a
month to families providing foster care to children
with significant medical or therapeutic needs requiring constant, vigilant care;
▪
weekend and evening supervision of visits by
parents with children placed in foster care due to
safety concerns;
▪
food pantry meals served seven days a week,
three times a day, including evenings and
▪
operation of a homeless shelter open seven days
a week.
B.

Specific examples of harm and of extraordinary practical and publicpolicy disruptions that would arise
were CSS’s position to prevail

It would create enormous difficulties if DHS
contracted providers could unilaterally rely on their
own religious beliefs to disregard specific contract
terms and to refuse to provide the services required
by contract to all eligible individuals involved in the
child welfare, juvenile court and human-services systems.
Allegheny County DHS has for years used a
uniform agreement for all social-services contracts.
Section 27.A. of that agreement requires all contractors, including faith-based providers, to agree not to
discriminate against employees, consumers or anyone
on the basis of “race; color; religion; national origin or
ancestry; sex; gender identity or expression; sexual

8
orientation; disability; marital status; familial status;
age . . .” 12
Were the Court to accept CSS’s position, Allegheny County providers would be able to rely on religious bases to dictate changes to government contract
requirements such as providing services on evenings,
weekends or 24 hours each day. Contractors could object and refuse to honor a contractual obligation to
provide services from Friday sundown to Saturday
sundown or on Yom Kippur or Rosh Hashanah if a
Jewish provider, a Catholic provider on Good Friday,
Christmas or Easter, or providers in a great many
other faiths with various non-working holidays. 13 An
agency that does not recognize same-sex marriage
could refuse to provide contracted crisis-intervention
services to a family when the parents are a same-sex
couple.
In some cases when a parent is unavailable or
unwilling to address a child’s medical needs and consent to medical care, a judge may order appointment
of a substitute medical decision-maker, including a
foster agency or group home. 14 Were the Court to achttps://www.alleghenycounty.us/WorkArea/linkit.
aspx?LinkIdentifier=id&ItemID=6442452759.

12

13
See Xavier University, Multi Faith Calendar of Religious
Holy
Days,
https://www.xavier.edu/jesuitresource/onlineresources/calendar-religious-holidays-andobservances/index.php#WorkRestrict.
14
See In Re: J.A., 107 A.3d 799, 815 (Pa. Super. 2015), determining that substitute medical decision-makers for dependent
children in Pennsylvania include those authorized by statute or
court rule to be temporary legal custodian “. . . including an individual qualified to receive and care for the child; an agency or
private organization licensed or authorized to receive and care for
the child; or a public agency authorized by law to receive and
care for the child.” Id. (Emphasis added.)

9
cept CSS’s proposed rule, that medical decisionmaking role could be contracted to a private foster
care or group-home provider for a medically needy or
fragile child only to have a provider refuse to provide
consent to a necessary blood transfusion based on his
faith as a Jehovah’s Witness. It would be nearly impossible for the government to address that situation
promptly when it developed suddenly or even in the
middle of the night or weekend.
A similar problem could arise when a county or
state government contracts with organizations to
serve as guardians or medical proxies for adults with
severe intellectual or physical disabilities and who
have no family available, willing or appropriate to do
so.
Some providers might object to working with
LGBTQ youth at all because of a belief that homosexuality is a sin and a choice individual youth make
that should not be condoned nor supported.
It would be harmful to a parent relying on supervised-visitation while working through addiction
and anger-management issues to lose bonding and
visiting time with a newborn because the contracted
supervised-visitation provider or parenting coach objected to delivering services due to a religious observance that day or refused to provide supervisedvisitation services or parenting coaching to same-sex
parents.
That same parent might receive daily methadone treatment from a provider required by contract
to be open seven days a week. If the provider could
claim that it need not comply with that important requirement because its religious beliefs required that
it not be open on certain days, it would force the parent to find a different methadone clinic on those days

10
and require Allegheny County to contract with multiple providers and pay for additional staff to help individuals navigate the widely varying practices of the
various substance-abuse programs and their bespoke
schedules.
Another example might involve a county contract to provide marriage counseling for all Medicaideligible families only to have a provider refuse on religious grounds to work with legally married same-sex
couples.
Allegheny County typically includes in fostercare agency contracts requirements to provide services such as clothing allotments and transportation
to parent visits and medical appointments. Were the
Court to accept CSS’s position, a faith-based foster
agency could refuse on religious grounds to provide
transportation on certain days or for visits with samesex parents or to haircut appointments when providers’ religious beliefs do not allow hair cutting or to
medical appointments if contracting with a Christian
Science-oriented provider whose religious beliefs prioritize spiritual healing of health problems over obtaining medical care and treatment.
The simple remedy for providers that for religious reasons do not wish or intend to deliver the full
scope of contracted services is to forgo seeking a contract that includes services they are unwilling to provide.

11
C.

Extrapolating Allegheny County
analysis to the nation as a whole

This modest case-study of just one county provides helpful insight into the significant and troubling
ramifications of a holding in CSS’s favor.
These examples can be extrapolated to other
governments in Pennsylvania and across the country.
Allegheny County’s $943.7 million spent on 414 contracted DHS providers to deliver services to 200,000
residents is far less than Philadelphia’s financial outlay and number of persons served.
Moreover, the problems caused by CSS’s
sought-after holding would be even greater in jurisdictions in which these burdens would be imposed
statewide and not one county at a time as in Pennsylvania. According to the Children’s Bureau of the
United States Department of Health and Human Services, 40 states have state-wide rather than countyadministered child welfare systems: Alabama, Alaska,
Arizona, Arkansas, Connecticut, Delaware, District of
Columbia, Florida, Georgia, Hawaii, Idaho, Illinois,
Indiana, Iowa, Kansas, Kentucky, Louisiana, Maine,
Maryland, Massachusetts, Michigan, Mississippi,
Missouri, Montana, Nebraska, New Hampshire, New
Jersey, New Mexico, Oklahoma, Oregon, Rhode Island, South Carolina, South Dakota, Texas, Tennessee, Utah, Vermont, Washington, West Virginia and
Wyoming. 15

15
Children’s Bureau of the Admin. of Children & Families,
U.S. Dep’t of Health & Human Servs., Child Information Gateway, Fact-Sheet: State v. County Administration of Child Welfare Services (2018),
https://www.childwelfare.gov/pubPDFs/services.pdf.

12
Should CSS prevail, any contracted provider
with a religious objection could refuse to provide ongoing services in any of the ways described above, leaving local, state and federal governments to reassign
and reallocate every “carved out” service. No matter
the timing of that decision, there will be thousands of
contracts in place nationally, likely for millions of
Americans and for billions of dollars if one extrapolates from Allegheny County’s annual $943.7 million
in contracts to 400 providers to serve 200,000 people. 16
II.

CSS’s suggested workaround is untenable
and unduly burdensome.

CSS suggests that the solution to this problem
is for the City to contract with other providers to work
with individuals CSS finds it religiously objectionable
to serve. Petitioners’ Br. 36. That “carve out” would
impose significant burden in terms of government
staff hours and costs involved for Allegheny County to
determine which of its 414 contracted providers would
refuse on religious grounds to provide certain services
and then to develop contingency plans and execute
contracts for “carve-out services.”
This would not be a once-a-year, single-pointin-time endeavor. Many religious objections would
arise throughout the course of any given year. For example, a provider might provide intensive services to
a child or adult for months or even years before the
child discloses that he is gay or the adult discloses
that she is in a same-sex relationship or was just
married to a person of the same gender. Or a provider
Allegheny County Department of Human Services, Office
Profile,
https://www.alleghenycountyanalytics.us/wpcontent/uploads/2020/08/Office-Profiles-DHS.pdf.
16

13
might care for a young person in foster care for years
before a serious medical need arose involving medical
care to which the provider has a religious objection to
consenting.
III.

Allowing contractors rather than the government to dictate the terms of government contracts or requests for proposals
would undermine government contracting
principles and would risk inequitably increasing the costs to taxpayers.

Counties ultimately pay a small percentage of
the cost of contracted child-welfare and human services.
Allegheny County paid just six per cent or $63
million of the $1.051 billion Allegheny County Department of Human Services expenses in fiscal year
2020. The remainder came from federal and state
funds plus $13.6 million in “other” funds, mostly from
private foundations. 17
Many foundation grants are restricted for a
particular purpose or have limitations on how those
dollars can or cannot be used, including requiring certifications or agreements regarding equal opportunity
and non-discrimination.
Some grants are for required purposes, such as
increasing placements of teens in foster care instead
of group homes or providing increased support to
LGBTQ foster youth. Allegheny County could appropriately designate those foundation funds to pay for a
contractor’s services when the contract terms were
Allegheny County Department of Human Services, Office
Profile,
https://www.alleghenycountyanalytics.us/wpcontent/uploads/2020/08/Office-Profiles-DHS.pdf.
17

14
consistent with the restricted purpose of the grant. If
the contractor’s later refusal to deliver the services as
contracted violated the terms and restricted purpose
of the grant, the governmental entity would not be
able to pay for the contractor’s services from the grant
funds.
In those circumstances, the county could lose
the funds, be subject to audit to prove that all funds
were used appropriately or risk losing credibility with
the foundation involved and others that might not renew or consider new grants to the county in subsequent years.
For example, the Allegheny County Department of Human Services received a $500,000 Kresge
Foundation grant in 2019 to develop a two-generation
model of service delivery of whole family support to
parents and children. 18 That grant requires compliance with “all applicable Federal and State statutes
and local laws relating to non-discrimination.” 19 The
grant also prohibits any of the grantee’s contractors
from engaging in lobbying, electioneering and other
activities. 20 The grant agreement reserves the right of
the foundation to modify, suspend or discontinue
payment or the grant agreement if the grantee fails to
comply with the grant term. 21.
Thus, governments need to be able to include
such non-discrimination provisions in their provider
18
https://www.alleghenycountyanalytics.us/wpcontent/uploads/2020/08/Kresge-NextGen-Initiative-GrantAgreement.pdf.
19

Id.

20

Id.

21

Id.

15
contracts and then enforce them not only because doing so is right and in accord with governmental policy
but because doing otherwise would put significant
outside funding opportunities at risk.
It helps governments like Allegheny County to
avoid that consequence and loss of foundation funding
through the standard practice of including nondiscrimination agreements in county contracts with
all providers.
Moreover, it seems inequitable—
▪
to require taxpayers to subsidize a provider’s
discrimination if the county’s share of the provider
contract cost increases because the provider refuses to
follow the county’s anti-discrimination requirements
or
▪
to require same-sex couples to join other taxpayers in paying additional taxes to subsidize the loss
of funding due to a provider’s discrimination—only to
have that provider foreclose access by those same-sex
couples to the provider’s government-delegated and
publicly funded certification and support of foster
parents.
In addition to risking losing direct foundation
or other funds, local and state governments might incur the further costs to accommodate contractors’ refusal to deliver services. Those could include hiring
additional government-contracting staff to deal with
all provider religious objections, identifying other resources to contract with to provide the “carve out”
services, paying for those “carve out” contracts and
possibly contending with audits of contract expenditures.

16
CONCLUSION
Decisions regarding how local and state governments contract for social services when delegating
government duties to private providers should prioritize meeting the needs of the vulnerable children,
families and individuals in need of help, not upon the
needs of providers who, if they disagree with contract
terms, could choose to forego involvement.
KidsVoice asks that the Court affirm the judgment of the Third Circuit.
Respectfully submitted,
SCOTT HOLLANDER
THOMAS WELSHONCE
JONATHAN BUDD
JENNIFER MCGARRITY
KIDSVOICE
437 Grant Street
Suite 700
Pittsburgh, PA 15203

DAVID R. FINE
(Counsel of Record)
K&L GATES LLP
17 North Second St.
18th Fl.
Harrisburg, PA 17101
(717) 231-4500
david.fine@klgates.com

Counsel for Amicus Curiae KidsVoice
August 20, 2020

